W                                                                   December 17, 1998



TO:            AO/Chief Information Officer

FROM:          W/Assistant Inspector General for Auditing

SUBJECT:       Final Report on Year 2000 Program Oversight
               of NASA’s Production Contractors
               Assignment Number A-HA-98-044
               Report No. IG-99-004


The subject final report is provided for your use. Please refer to the Results in Brief section for
the overall audit results. Your comments on a draft of this report were responsive to our
recommendations. Our evaluation of your responses has been incorporated into the body of the
report, and an additional audit response is in Appendix C. The report’s two recommendations
will remain open for reporting purposes pending implementation of planned and ongoing
corrective actions.

If you have questions concerning the report, please contact Mr. David L. Gandrud, Program
Director, Information Technology Program Audits, at (650) 604-2672, or Mr. Roger W. Flann,
Program Manager, at (818) 354-9755. We appreciate the courtesies extended to the audit staff.
The report distribution is in Appendix D.


[original signed by]
Russell A. Rau

Enclosure

cc:
B/Chief Financial Officer
G/General Counsel
JM/Director, Management Assessment Division
bcc:
AIGA, IG, Reading (w/o Encl.) Chrons
ARC/204-11/D. Gandrud
JPL/180-300/R. Flann
                                                        IG-99-004



AUDIT
REPORT                        YEAR 2000 PROGRAM OVERSIGHT
                           OF NASA’S PRODUCTION CONTRACTORS


                                    DECEMBER 17, 1998




                              OFFICE OF INSPECTOR GENERAL


National Aeronautics and
Space Administration
ADDITIONAL COPIES

To obtain additional copies of this audit report, contact the Assistant Inspector General for
Auditing at 202-358-1232.

SUGGESTIONS FOR FUTURE AUDITS

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

               Assistant Inspector General for Auditing
               NASA Headquarters
               Code W
               300 E Street SW
               Washington, DC 20546


NASA HOTLINE

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline by calling
1-800-424-9183, 1-800-535-8134 (TDD), or by writing the NASA Inspector General, P.O. Box
23089, L’Enfant Plaza Station, Washington, DC 20026. The identity of each writer and caller can
be kept confidential, upon request, to the extent permitted by law.




ACRONYMS

CIO            Chief Information Officer
DCAA           Defense Contract Audit Agency
DCMC           Defense Contract Management Command
DoD            Department of Defense
FAC            Federal Acquisition Circular
FAR            Federal Acquisition Regulation
OMB            Office of Management and Budget
PIC            Procurement Information Circular
Y2K            Year 2000
                     NASA OFFICE OF INSPECTOR GENERAL
IG-99-004                                                                          DECEMBER 17, 1998
 A-HA-98-044


                       YEAR 2000 PROGRAM OVERSIGHT
                    OF NASA’S PRODUCTION CONTRACTORS


Introduction

The NASA Office of Inspector General is performing a review of the Year 2000 (Y2K) Program
at five NASA Centers1 and the Jet Propulsion Laboratory. Our objectives were to (1) evaluate
the adequacy of NASA’s efforts to renovate and validate systems with Y2K date problems,
(2) evaluate the adequacy of NASA’s oversight of contractor renovation and validation activities,
and (3) determine whether NASA’s Y2K reporting to the Office of Management and Budget
(OMB) is accurate and well-supported. During the review, we identified an issue regarding the
adequacy of NASA’s oversight of its production contractors’2 efforts toward achieving Y2K
compliance. Details on our scope and methodology are in Appendix A.

Results in Brief

NASA lacks reasonable assurance that its production contractors will provide Y2K-compliant
data to support the Agency’s key financial and program management activities. Without
reasonable assurance that contractor systems are Y2K compliant, NASA risks receiving,
processing, and placing reliance on erroneous data that could adversely affect Agency operations.

Background

The Y2K problem affects computer systems worldwide. Software application programs that use
a standard two-digit format (mm/dd/yy) to generate a date may not work properly after the year
2000. Systems that will continue to function properly are designated “Y2K compliant.” Systems
that are not “Y2K compliant” are at risk of failure and may cause other systems to fail. Y2K
compliance is defined in NASA’s Year 2000 Test and Certification Guidelines and Requirements
as information technology that:

        . . . accurately processes date/time data (including, but not limited to, calculating,
        comparing, and sequencing) from, into, and between the twentieth and twenty-first centuries,
        and the years 1999 and 2000 and leap year calculations, to the extent that other information
        technology, used in combination with the information technology being acquired, properly
        exchanged date/time data with it.

1
  Goddard Space Flight Center, Lyndon B. Johnson Space Center, John F. Kennedy Space Center, Lewis
Research Center, and George C. Marshall Space Flight Center.
2
  Contractors who provide goods to NASA and submit required reporting on contractor-owned and -operated
information technology systems.
The Y2K problem is especially relevant to NASA’s relationship with its contractors. NASA
contracts out about 90 percent of its total budget and, therefore, relies heavily on contractor
reporting for its key financial and program management information. In this regard, NASA
has taken steps to work with its contractors and business partners on the Y2K problem.
These steps have included sending more than 3,000 letters, signed by the NASA
Administrator, to every business and institution that works with NASA. The letters state the
importance of NASA’s Y2K program, request assurance that the organization has a Y2K plan
of action, and ask for a point of contact. In addition, NASA has established Y2K outreach
efforts with the Aerospace Industry Association.

In addition to the above actions, the Office of Procurement has issued two Y2K-related
Procurement Information Circulars (PICs) (PICs 98-8 and 98-9, each dated May 21, 1998). The
PICs require contracting officers to include Y2K-compliance clauses in Y2K-affected solicitations
and contracts for NASA information technology. The clauses require the contractor to meet Y2K
requirements within established milestones.

NASA largely depends on Department of Defense (DoD) organizations to perform the contract
administration and audit functions at NASA’s contractor locations. The principal DoD
organizations providing those services are the Defense Contract Audit Agency (DCAA) and the
Defense Contract Management Command (DCMC). NASA’s Office of Procurement may request
services from each of those organizations. An agreement signed in 1969 delineates the contract
administration and contract audit services that DoD will provide to NASA. Under this
agreement, the DCAA performs audits of contractor operations including financial management
systems and the DCMC performs contract administration responsibilities including administration
of property, industrial facilities, production, and quality assurance.

Contractor Reporting

Finding. NASA lacks reasonable assurance that its production contractors will provide Y2K-
compliant data to support the Agency’s key financial and program management activities. This
condition occurred because the Office of Procurement has not asked the DCAA or DCMC to
conduct Y2K reviews at NASA’s major contractor locations. As a result, NASA risks using
noncompliant data that may adversely affect the Agency’s control, budgeting, program
management, and cost accounting activities.

NASA requires its contractors to submit key financial and program information. For example,
NASA Policy Directive 9501, “NASA Contractor Financial Management Reporting System,”
April 23, 1996, requires contractors to report cost, schedule, and performance data. NASA
Federal Acquisition Regulation (FAR) Supplement 1845, “Management of Government




                                               2
Property in the Possession of Contractors,” requires contractors to report any Agency
property in their possession. Information submitted in response to these reporting
requirements3 is critical to NASA’s financial and programmatic activities.

DCAA and DCMC Headquarters officials told us they had no overall plan to verify Y2K
compliance at NASA contractor locations. At the time of our review, the DCAA and DCMC
were developing guidance for performing Y2K work but had been unable to reach agreement on
the contents of the guidance. To determine whether other Y2K work may have been in process at
NASA contractor locations, we contacted DCAA representatives at the Jet Propulsion
Laboratory; Boeing Rocketdyne Division; and Cordant Technologies, Inc. (Thiokol Propulsion
Group). The representatives confirmed that the DCAA had no plans to verify Y2K compliance at
their locations. Further, NASA had no plans to determine the status of Y2K compliance efforts
by NASA’s production contractors.

Subsequent to completion of our initial field work, on September 14, 1998, DCAA Headquarters
issued guidance to its regional offices regarding the need to consider Y2K issues in DCAA audits.
The guidance discusses audit responsibilities related to inquiries about contractor Y2K
remediation efforts, internal control risk assessment consideration of Y2K issues, and cost and
going concern4 issues. However, the guidance did not specify a timetable for providing Y2K
audit coverage at major or nonmajor locations. These audit activities should be consistent with
NASA’s overall Y2K goals and milestones for ensuring Y2K compliance and should place
maximum reliance on assessments performed to fulfill other needs such as those initiated by the
Securities and Exchange Commission for quarterly and annual reporting by registrants.

As a customer of DCAA and DCMC services, NASA needs to specify the extent of coverage and
milestones for examination of contractor Y2K compliance. At a minimum, the Agency should
seek reasonable assurance that major contractors are examined and that the nature and extent of
their Y2K compliance is determined. NASA should also require that Y2K compliance problems
identified in these examinations be monitored through completion of corrective action.

Recommendations for Corrective Action

Recommendation 1. The NASA Associate Administrator for Procurement, in coordination with
the NASA Chief Information Officer, should request the DCAA and DCMC to: assess Y2K
compliance at major NASA contractor locations, with emphasis on systems that provide critical
management information to NASA; and track corrective action on identified deficiencies.


3
  Specific reporting requirements are in NASA Form 533, “NASA Contractors Financial Management
Reports,” and Form 1018, “Report of Government-owned/Contractor-held Property.” NASA Form 533
identifies basic financial management information on contract cost, schedule, and performance, and represents
the basis for NASA’s largest financial statement liability account (Accounts Payable). NASA Form 1018
identifies various types of property, including land, buildings and structures, material, plant equipment, space
hardware, special tooling, and special test equipment. These assets represent the single largest asset account
(part of the Property, Plant and Equipment account) listed in the Agency’s financial statements.
4
  The ability of an entity to continue to exist.


                                                       3
Recommendation 2. The NASA Associate Administrator for Procurement, in cooperation with
the NASA Chief Information Officer, should establish milestones for DCAA and DCMC progress
in reviewing contractor Y2K compliance.

Management’s Response

Concur with intent. After submitting a response dated November 2, 1998, the Chief Information
Officer (CIO) submitted additional comments dated November 19, 1998 (see Appendix B), that
stated “We are taking steps that we believe concur with the intent of the recommendations, that
is, to seek reasonable assurance that major contractors are examined and that the nature and
extent of their Y2K compliance is determined.” Specifically, NASA will issue a letter to DCAA
requesting the dates DCAA plans to perform Y2K assessments at each of NASA’s major
contractors. Based on the DCAA response, NASA management will determine whether further
action is necessary. Also, NASA will issue a letter to its Center Procurement Officers
communicating the DCAA Y2K guidance and the DCAA response to NASA’s letter on major
contractor coverage. The letter will remind the Procurement Officers of their responsibilities for
monitoring Y2K problems identified by DCAA.

Management also provided general comments on the report that we address in Appendix C.

Evaluation of Management’s Response

We consider management’s planned actions responsive to the recommendations. The actions
should enable NASA to achieve visibility of its contractors’ Y2K status and determine whether
further DCAA direction is necessary. While NASA did not specifically task DCMC to track Y2K
efforts of NASA contractors, the NASA letter to the DCAA dated November 6, 1998, adequately
addressed the DCMC role regarding Y2K assessments of Government-owned/Contractor-held
property.




                                               4
                                                                                       APPENDIX A


SCOPE AND METHODOLOGY
We conducted the audit in accordance with generally accepted government auditing standards.
We performed the audit field work for this report from July 15, through September 11, 1998.
We examined and tested applicable records and documentation (dated from May 1969 through
August 1998),5 to identify applicable management controls and to verify that the controls were
working as described. Specifically, we:

    •   Reviewed contract support agreements between NASA and the DoD, NASA’s
        Y2K documented communications with its contractors, NASA’s financial
        statements, applicable NASA policy directives, NASA procedures and guidance,
        and applicable sections of the NASA FAR Supplement.

    •   Interviewed Y2K Headquarters representatives at the DCAA, the DCMC, and the
        NASA Office of Procurement.

    •   Interviewed DCAA office managers at the Jet Propulsion Laboratory; Boeing
        Rocketdyne Division; and Cordant Technologies, Inc. (Thiokol Propulsion Group)
        to determine the extent of the DCAA Y2K audit work performed or planned at
        those locations.




5
  Agreements between NASA and DoD for performance of contract administration and contract audit services
in support of NASA contracts, dated 1969 and 1992; NASA Policy Directive 9501.1F, “NASA Contractor
Financial Management Reporting System,” April 23, 1996; NASA Procedures and Guidance 9501.2C,
“Procedures for Contractor Reporting of Correlated Cost,” April 23, 1996; FAR Part 45, “Government
Property”; NASA FAR Supplement, Subpart 1845, “Management of Government Property in the Possession
of Contractors.”




                                                   5
                            APPENDIX B


MANAGEMENT'S RESPONSE




                        6
    APPENDIX B




7
    APPENDIX B




8
    APPENDIX B




9
     APPENDIX B




10
     APPENDIX B




11
     APPENDIX B




12
     APPENDIX B




13
     APPENDIX B




14
     APPENDIX B




15
     APPENDIX B




16
     APPENDIX B




17
                                                                             APPENDIX C


MANAGEMENT’S GENERAL COMMENTS AND AUDIT RESPONSES
The CIO provided the following general comments on the draft report.

Management’s Comments

Although the CIO concurred with the intent of the report’s recommendation “to seek
reasonable assurance that major contractors are examined and that the nature and extent of
their Y2K compliance is determined,” the CIO did not concur with the finding that NASA
lacks reasonable assurance that its production contractors are Y2K-compliant. The CIO
stated that the report failed to show why the DCAA and the DCMC should perform
specific-purpose Y2K audits at major NASA contractors, given the contractors’ existing level
of Y2K oversight. The CIO cited examples of existing Y2K oversight including the Security
and Exchange Commission’s disclosure requirements, audit reviews by certified public
accountants, corporate in-house Y2K audits, and NASA’s outreach work with the aerospace
and aeronautics industry groups.

Audit Response

We agree that Y2K oversight may exist at NASA’s production contractors; however, we
found no evidence that NASA was assessing the adequacy of its contractors’ Y2K activities.
Also, we found no evidence that either the DCAA or the DCMC was assessing the
contractors’ Y2K activities. Accordingly, we concluded that NASA lacked reasonable
assurance that its contractors were or would be Y2K-compliant. We believe NASA can better
assess the adequacy of its contractors’ Y2K activities after the DCAA has implemented its
guidance for assessing contractors’ Y2K status and has responded to NASA’s letter
requesting data on Y2K coverage. If NASA finds the DoD audit or contract Y2K coverage
inadequate, then NASA can take appropriate action to address the deficiencies.




                                             18
                                                                             APPENDIX D


REPORT DISTRIBUTION

NASA Headquarters

Code AO/Chief Information Officer
Code B/Chief Financial Officer
Code B/Comptroller
Code G/General Counsel
Code H/Acting Associate Administrator for Procurement
Code J/Associate Administrator for Management Systems and Facilities
Code JM/Director, Management Assessment Division
Code L/Associate Administrator for Legislative Affairs
Code M/Associate Administrator for Space Flight
Code R/Associate Administrator for Aero-Space Technology
Code R/Chief Information Officer Representative
Code S/Associate Administrator for Space Science
Code W/Assistant Inspector General for Inspections, Administrative Investigations,
 and Assessments
Code Y/Associate Administrator for Earth Science

NASA Offices of Inspector General

Ames Research Center
Goddard Space Flight Center
Jet Propulsion Laboratory
Lyndon B. Johnson Space Center
John F. Kennedy Space Center
Langley Research Center
Lewis Research Center
George C. Marshall Space Flight Center
John C. Stennis Space Center




                                             19
                                                                             APPENDIX D


Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Assistant to the President and Chair, President's Council on Y2K Conversion
Deputy Director of Management, Office of Management and Budget
Deputy Associate Director, Energy and Science Division, Office of Management
 and Budget
Budget Examiner, Energy Science Division, Office of Management and Budget
Associate Director, National Security and International Affairs Division,
 General Accounting Office
Special Counsel, House Subcommittee on National Security, International Affairs,
 and Criminal Justice
Professional Assistant, Senate Subcommittee on Science, Technology, and Space
Assistant Inspector General for Auditing, Department of Defense
Director, Defense Contract Audit Agency

Chairman and Ranking Minority Member -- Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

The Honorable Pete Sessions, U.S. House of Representatives




                                            20
MAJOR CONTRIBUTORS TO THIS REPORT

David L. Gandrud, Program Director, Information Technology Program Audits
Roger W. Flann, Program Manager
Barbara J. Smith, Program Assistant




                                     21
